COCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 L € g a l B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-247

CITY OF BOISE, IDAHO,
Petitioner,

v.
ROBERT MARTIN, et al.
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly swom, upon my oath state that I did, on the 25th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE PEOPLE CONCERN AND WEINGART
CENTER ASSOCIATION AS AMICI CURIAE SUPPORTING PETITIONER in the above entitled case. All parties required
to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly
addressed to the following:

SEE ATTACHED
To be filed for:
CATHERINE ESCHBACH MICHAEL E. KENNEALLY
MORGAN, LEWIS & Counsel of Record
BOCKIUS LLP MORGAN, LEWIS &
1000 Louisiana Street, BOCKIUS LLP
Suite 4000 1111 Pennsylvania
Houston, TX 77002 Avenue, N.W.
Washington, DC 20004
(202) 739-3000

michael.kenneally
@morganlewis.com

Subscribed and sworn to before me this 25th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

os 3 6 Ellie Qudiow-h. ke

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38642
 

Attorneys for Petitioner

Theane Evangelis Kapur
Counsel of Record

Party name: City of Boise

Gibson, Dunn and Crutcher, LLP 213-229-7726
333 South Grand Ave.

48th Floor

Los Angeles, CA 90071

tevangelis@gibsondunn.com

 

 

Attorneys for Respondents

Michael Evan Bern
Counsel of Record

Latham & Watkins, LLP 202-637-1021
555 11th Street NW, Suite 1000
Washington, DC 20004-1304

michael.bern@Iw.com

Party name: Robert Martin, et al.

 

 
